<html>
<title> - NATIONAL ARCHIVES: ADVISORY COMMITTEES AND THEIR EFFECTIVENESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     NATIONAL ARCHIVES: ADVISORY COMMITTEES AND THEIR EFFECTIVENESS 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2009

                               __________

                           Serial No. 111-28

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-382 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERRY E. CONNOLLY, Virginia          JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      PATRICK T. McHENRY, North Carolina
CAROLYN B. MALONEY, New York         LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   JOHN L. MICA, Florida
    Columbia                         JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
                     Darryl Piggee, Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 20, 2009.................................     1
Statement of:
    Fawcett, Sharon, Assistant Archivist for Presidential 
      Libraries, National Archives and Records Administration; 
      Martha Morphy, Chief Information Officer, National Archives 
      and Records Administration; Robert Flaak, Director, 
      Committee Management Secretariat, General Services 
      Administration; and Christopher Greer, Assistant Director 
      for Information Technology Research and Development, White 
      House Office of Science and Technology Policy..............    18
        Fawcett, Sharon..........................................    18
        Flaak, Robert............................................    51
        Greer, Christopher.......................................    47
        Morphy, Martha...........................................    40
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     4
    Fawcett, Sharon, Assistant Archivist for Presidential 
      Libraries, National Archives and Records Administration, 
      prepared statement of......................................    21
    Flaak, Robert, Director, Committee Management Secretariat, 
      General Services Administration, prepared statement of.....    54
    Greer, Christopher, Assistant Director for Information 
      Technology Research and Development, White House Office of 
      Science and Technology Policy, prepared statement of.......    49
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........    14
    Morphy, Martha, Chief Information Officer, National Archives 
      and Records Administration, prepared statement of..........    42


     NATIONAL ARCHIVES: ADVISORY COMMITTEES AND THEIR EFFECTIVENESS

                              ----------                              


                       TUESDAY, OCTOBER 20, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay and McHenry.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Frank Davis, professional staff; Yvette Cravins, 
counsel; Charisma Williams, staff assistant; Anthony Clark, 
professional staff member; Leneal Scott, information systems 
manager (full committee); Adam Hodge, deputy press secretary 
(full committee); Gerri Willis, special assistant (full 
committee); Adam Fromm, minority chief clerk and Member 
liaison; Howard Denis, minority senior counsel; and Chapin Fay 
and Jonathan Skladany, minority counsels.
    Mr. Clay. Good afternoon. The Information Policy, Census, 
and National Archives Subcommittee of the Oversight and 
Government Reform Committee will come to order.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Welcome to today's oversight hearing entitled, ``National 
Archives: Advisory Committees and their Effectiveness.'' The 
purpose of today's hearing is to examine the National Archives' 
use of Federal advisory committees. We will consider several 
important topics, including the statutory requirements of 
Federal advisory committees, the impact of the advisory 
committees on NARA decisionmaking, relevant developments in 
Presidential libraries, and compare NARA's use of two very 
different committees.
    The National Archives' stated mission is to serve American 
democracy by safeguarding and preserving the records of our 
Government. As we will hear from our witnesses today, in order 
to help them fulfill their mission successfully, NARA employs 
advisory committees made up of outside experts and subject to 
the Federal Advisory Committee Act. We will examine two of 
those committees this afternoon, one for the Electronic Records 
Archives and one on Presidential libraries.
    Before we go to our witnesses, I would like to address the 
role of advisory committees under FACA at the National 
Archives.
    Presidents and executive agencies have utilized outside 
expertise since George Washington's Presidency, and Congress 
has exerted legislative control over advisory bodies since 
1842. Responding to increasing concerns that Federal advisory 
committees were inefficient, inaccessible, and imbalanced, in 
1972 Congress enacted FACA, which requires that committee 
membership must be fairly balanced in terms of the points of 
view represented and the functions to be performed, and the 
committee should not be inappropriately influenced by the 
appointing authority or by any special interest. Additionally, 
FACA requires nearly all committee meetings to be open to the 
public.
    This subcommittee is concerned about NARA's Advisory 
Committee on Presidential Libraries, both as regards its 
effectiveness at this critical time for Presidential records 
and libraries, and in terms of NARA's compliance with FACA.
    As we will hear from our witnesses, the Committee on 
Presidential Libraries is very different in important ways from 
most Federal advisory committees, including another important 
NARA Committee on Electronic Records Archives.
    NARA claims that the membership of the Advisory Committee 
on Presidential Libraries must be limited to representatives of 
the private foundation that build and support the libraries 
because they have been deeply involved in the development of 
the various libraries and can speak with authority on issues 
that arise in connection with establishing new libraries or 
administering existing ones.
    Obviously, the expertise of the foundation is quite 
valuable, given the rare world that they live and work in. 
After all, there are currently only 12 open Presidential 
libraries in the Federal system, and understanding how to 
prepare for, build, maintain, and support one requires a very 
specific set of skills and experience. However, that the 
membership is so narrowly limited concerns this subcommittee in 
light of FACA's clear requirement that committees be fairly 
balanced in terms of the points of view represented.
    The advisory committee does not include any other relevant 
stakeholders, historians, archivists, preservationists, 
curators, and other museum performances, educators, 
researchers, whose experience, perspectives, and skills could 
greatly assist NARA.
    Also troubling is the fact that the committee appears no 
longer to meet. There are many serious issues surrounding the 
Presidential libraries, not the least of which are the current 
plans for the next library for former President George W. Bush, 
and yet the Advisory Committee on Presidential Libraries last 
met in January 2006, almost 4 years ago. As far as this 
subcommittee knows, there are no plans for the committee to 
meet again, even though NARA continues to reauthorize the 
committee and appoint or reappoint members from the private 
foundations.
    The challenges faced by new and existing Presidential 
libraries are not limited to fund-raising and construction. 
There are serious questions of prompt and proper access to 
Presidential records; the records management policies and 
practices of Presidential administrations and executive 
agencies; the care, preservation, and exhibition of priceless 
artifacts and other national treasures; the security of 
Presidential collections at the libraries and at other NARA 
facilities; the role of the libraries in the education of our 
young people; the historical balance, or often lack of balance, 
within permanent and temporary museum exhibits; just to name a 
few.
    It is this subcommittee's hope that through our hearing 
today we will gain a better understanding of NARA's reasons for 
treating this advisory committee so differently and will 
provide the National Archives with some valuable information 
they can use in order to make their advisory committees more 
efficient and effective.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Now on to today's topic. I will now yield to the 
distinguished ranking minority member, Mr. McHenry of North 
Carolina.
    Mr. McHenry, you are recognized.
    Mr. McHenry. Thank you, Mr. Chairman. Thank you for your 
leadership.
    Thank you all for being here today. I know it is not easy 
to make the trek up to the Hill, but we certainly appreciate 
your time and your testimony, as well as the written testimony 
you have already submitted for the record.
    We will also be exploring pretty important subject matter 
today that goes often unnoticed, and that is Federal advisory 
committees. As we will hear testimony today, in 2008, 49 
Executive departments and agencies utilized advisory committees 
consisting of over 63,000 committee members serving on more 
than 900 committees and providing advice to Government 
officials and employees.
    These Government advisory committees are governed by the 
Federal Advisory Committee Act [FACA], as the chairman 
mentioned, which was passed in 1972 as part of a good 
Government initiative. As the chairman said, advisory 
committees go significantly further back, obviously, than 1972, 
and Congress' role in oversight of those advisory committees is 
certainly important.
    FACA requires that committee members be ``fairly balanced 
in terms of the point of view represented and the functions to 
be performed,'' and the committee ``not be inappropriately 
influenced by the appointing authority or by any special 
interest.''
    FACA is designed to ensure both the even-handedness and 
transparency of Federal advisory committees. Moreover, FACA 
provides for multiple tiers of oversight by the President, 
Congress, and the GSA, which we will certainly hear from today, 
and the agencies, themselves, which additionally we will hear 
from today.
    It is in this oversight vein that we are here today to 
explore the operations and efficiencies and efficacy, 
furthermore, of the advisory committees, giving advice to the 
National Archives and Records Administration [NARA]. To that 
end, we will be hearing from NARA officials responsible for the 
agency's committees, the General Services Administration, and 
the committees, themselves.
    It is up to us as Members of Congress to ensure that NARA's 
advisory committees, which are often made up of members outside 
of Government, are living up to the good Government standards 
set forth under FACA.
    The National Archives, much like advisory committees, in 
general, is an agency that conducts invaluable work, that is 
certainly true, but not always with the highest level of public 
scrutiny, as often important agencies are lost to public 
scrutiny. Perhaps because of this lack of transparency and 
sunlight, the agency has suffered multiple egregious security 
lapses as of late.
    Mr. Chairman, while I believe that the recent National 
Archives security breaches represent a much more urgent call 
for appropriate oversight hearings by this committee, as we 
have previously had--and I appreciate your leadership on that--
I look forward to today's testimony so that we can ensure our 
advisory committees are acting in a balanced and transparent 
manner.
    Thank you, Mr. Chairman. And I thank you for your 
testimony.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you, Mr. McHenry, for your participation in 
this hearing and in previous hearings, and your cooperation on 
these issues. It is one thing that I think you say about this 
subcommittee is that we do work together and that we do 
understand the importance of these issues. So thank you for 
your service.
    I would now like to introduce our panel.
    Our first witness will be Sharon K. Fawcett. Ms. Fawcett is 
the assistant archivist for Presidential Libraries. In that 
position she provides policy, direction, and oversight of the 
13 Presidential libraries administered by the National Archives 
and Records Administration. Ms. Fawcett began working at the 
National Archives in 1969 as an archivist on the staff of the 
Lyndon B. Johnson Library. Ms. Fawcett is the committee 
decisionmaker under FACA for the Advisory Committee on 
Presidential Libraries.
    Welcome today at this hearing, Ms. Fawcett.
    Our next witness is Martha Morphy. Ms. Morphy is currently 
the chief information officer of NARA. She is responsible for 
all NARA information technology projects, including the 
acquisition of NARA's ERA system, a system that preserves and 
provides long-term access to uniquely valuable electronic 
records of the U.S. Government and transitions Government-wide 
management of the life cycle of all records into the realm of 
e-Government. Ms. Morphy is the committee decisionmaker under 
FACA for the Advisory Committee on Electronic Records Archive.
    After Ms. Morphy we will hear from Dr. Christopher Greer. 
Dr. Greer is currently assistant director for information 
technology research and development at the White House Office 
of Science and Technology Policy and was previously Program 
Director for the Office of Cyber Infrastructure at the National 
Science Foundation. Dr. Greer is a member of the Advisory 
Committee on Electronic Records Archives.
    Our final witness will be Robert Flaak. Mr. Flaak is 
currently the director of the Committee Management Secretariat, 
an organization that monitors and reports executive branch 
compliance with the Federal Advisory Committee Act, and is also 
Deputy Executive Director of the Office of Policy Initiatives 
at the General Services Administration. He previously served as 
the Deputy Executive Director of the Office of Administrative 
Policy and Office of Government-Wide Policy of the General 
Services Administration and as the head of the committee 
operations staff, and later Deputy Director of the Science 
Advisory Committee at the EPA.
    I thank all of our witnesses for appearing today and look 
forward to your testimony.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify. Would 
you all please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    I ask that each witness now give a brief summary of their 
testimony. Please limit your summary to 5 minutes. Your 
complete written statement will be included in the hearing 
record.
    I have just been informed that Ms. Fawcett and Ms. Morphy 
have been replaced as committee decisionmakers of their 
respective committees as of yesterday morning. We will let the 
record reflect that.
    Ms. Fawcett, you may begin, please.

     STATEMENTS OF SHARON FAWCETT, ASSISTANT ARCHIVIST FOR 
     PRESIDENTIAL LIBRARIES, NATIONAL ARCHIVES AND RECORDS 
   ADMINISTRATION; MARTHA MORPHY, CHIEF INFORMATION OFFICER, 
  NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; ROBERT FLAAK, 
 DIRECTOR, COMMITTEE MANAGEMENT SECRETARIAT, GENERAL SERVICES 
 ADMINISTRATION; AND CHRISTOPHER GREER, ASSISTANT DIRECTOR FOR 
 INFORMATION TECHNOLOGY RESEARCH AND DEVELOPMENT, WHITE HOUSE 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                  STATEMENT OF SHARON FAWCETT

    Ms. Fawcett. Chairman Clay, Ranking Member McHenry, I want 
to thank you for this opportunity to testify before you today 
on NARA's use of the Federal Advisory Committee Act. The 
Advisory Committee on Presidential Libraries was established by 
the former Archivist of the United States Don Wilson in 1988. 
The committee last met on January 26, 2006.
    Former Archivist Don Wilson tasked the committee to provide 
advice to the Archivist on matters relating to the Archival 
Museum and public programs of the Presidential libraries. The 
original membership was composed of representatives of each of 
the foundations or families that had developed an existing 
Presidential library. It was intended that the membership 
expand when new Presidential libraries were created, and so it 
did. The meetings served as a forum for the discussion of 
issues relevant to NARA and the Presidential foundations.
    Over the 21-year history of the committee, it provided the 
Archivist advice and recommendation in a number of areas, 
including the need for additional Government resources to 
support core programs; comments on a 1995 report on the 
relationship between the Presidential libraries and their 
support foundations; the responsibility for funding 
renovations, exhibits, and programs in Presidential libraries; 
ideas on marketing strategies for Presidential libraries; 
whether the National Archives Trust Fund Board should re-
examine its trust fund investment strategy in order to increase 
returns on investments; and whether NARA should consider the 
possibility of allowing dual compensation for library directors 
who also served as executive directors of library foundations.
    After the 2006 meeting, Archivist Allen Weinstein did not 
convene subsequent committee meetings. Representatives of the 
foundations, not the advisory committee, have chosen recently 
to meet among themselves to discuss issues of common interest 
and concern. Foundation and/or family representatives convened 
together at a Washington, DC, hotel in April 2008. Archivist 
Allen Weinstein and I were invited to provide an update on NARA 
and library activities following an evening reception, and we 
did so. We did not attend any of the discussions the next day, 
though it is my understanding that these discussions focused on 
budgetary issues, including funding for core archival 
processes, digitization, and information technology.
    I was asked to address whether NARA has received all the 
information from this advisory committee needed to properly 
evaluate the proposal for the planned George Bush Presidential 
Library. Neither Archivist Carlin nor Archivist Weinstein used 
the committee to evaluate new library proposals. NARA developed 
architectural design standards in 1999 which govern the design, 
building, and acceptance of a Presidential archival depository.
    The Archivist invited representatives from the George W. 
Bush Library Committee to meet with the advisory committee in 
January 2006. At an informal lunch following the meeting, the 
library directors and members of the committee provided 
suggestions on best practices and mistakes to avoid. My office 
compiled a summary of the advice for the Bush Library 
Committee, which I have provided to you.
    The Archivist encouraged the Bush committee to visit some 
of the Presidential Libraries and meet with library and 
foundation staff, which I believe they did.
    As NARA laid out in our report, Alternative Models for 
Presidential Libraries, our relationship with library 
foundations is complex. The Government's role is to run the 
library, which involves preserving the collections, processing 
the records for public access, and working to ensure that the 
historical content of exhibits and education programs reflects 
an objective perspective of the Presidency, even as the private 
foundations have carried the major financial responsibility for 
funding our exhibits and programs. Exhibits today, which 
incorporate cutting edge technology and dramatic design 
elements, are costly, as much as $10 million to design and 
install a new permanent exhibit. Five library foundations have 
recently funded or are currently raising money for new 
permanent exhibits.
    While there are many positive benefits to the unique 
relationship NARA has with the foundations, the foundations and 
NARA's view of our stewardship responsibilities are not always 
aligned. Presidential libraries serve a broad constituency of 
users who hold divergent views on the priorities and mission of 
Presidential libraries.
    I have long thought that the advisory committee 
representing these multiple stakeholder groups could provide 
the Archivist with advice on a broader range of issues; 
however, it is also important for the Archivist to have a forum 
in which to discuss important issues of concern to the National 
Archives with the foundations who provide substantial support 
to the libraries.
    In late 2004 I discussed the issue of membership with 
Archivist John Carlin. Archivist Weinstein held two meetings of 
the committee. He and I discussed whether to make changes to 
the membership of the committee. In December 2008 the Archivist 
designed before making any decision about the future of the 
committee.
    Earlier this year, Acting Archivist Adrienne Thomas 
considered not renewing the charter; however, as Carlin did 
previously, she decided to leave the decision to the next 
Archivist of the United States, and therefore elected to renew 
its charter for another 2 years.
    Family members, former associates of the Presidents, and 
foundation members from the committees where we have libraries 
have served on the committee. It is my understanding that FACA 
does not bar an agency from establishing a limited purpose 
advisory committee with a more focused membership such as this 
one. The library foundations are an important partner, and the 
Archivist needs to be able to meet with them individually and 
as a group.
    The FACA-established committee provides an open and 
transparent way in which to conduct these meetings. The next 
Archivist will need to consider the important question of 
whether to keep this advisory committee as it is currently 
constituted and/or establish a new committee with a broader 
membership to provide more divergent feedback and advice to 
NARA on its Presidential libraries.
    Thank you. This concludes my oral statement. I will be 
pleased to answer any of your questions about the advisory 
committee.
    [The prepared statement of Ms. Fawcett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you, Ms. Fawcett, for your statement.
    Ms. Morphy, you are recognized.

                   STATEMENT OF MARTHA MORPHY

    Ms. Morphy. Chairman Clay, Ranking Member McHenry, I am 
here as the designated Federal official for the Archivist 
Advisory Committee on Electronic Records Archives. I appreciate 
the opportunity to testify before you today on the National 
Archives and Records Administration use of the Federal Advisory 
Committee Act, and specifically the Advisory Committee on 
Electronic Records Archives [ACERA].
    ACERA was established by then Archivist of the United 
States Allen Weinstein in 2005. This committee meets twice a 
year in April and November, and information about the meeting 
and the meeting minutes are available at the National Archives 
Web site. The last meeting was held on April 29, and 30, 2009. 
The costs for that meeting were approximately $9,300, which 
included travel, per diem, and supplies.
    Since its creation, this committee has scheduled nine 
meetings and met eight times. The ninth meeting will be held on 
November 4th and 5th of this year.
    Archivist Weinstein established the committee to serve as a 
deliberative body to advise the Archivist of the United States 
on technical, mission, and service issues related to the 
Electronic Records Archives [ERA]. This includes but is not 
limited to advising and making recommendations to the Archivist 
on issues related to the development, implementation, and use 
of the ERA system. ERA is an information technology system 
being built to support the preservation of and access to 
electronic records that are complex in nature, diverse in 
format, and exponentially increasing in volume. The challenge 
that NARA faces in the area of electronic records is one that 
is shared throughout the Government and the private sector.
    The original ACERA membership consisted of 18 members 
considered to have particular expertise, knowledge, and 
interest in electronic records. Today's membership consists of 
17 recognized experts and leaders with active interest in 
records management, electronic records, information technology, 
and research in Federal and State governments, academia, and 
the public and private sectors.
    The meetings serve as a forum for the discussion of issues 
relevant to NARA and the Electronic Records Archives, and are 
therefore not strictly structured to only provide formal 
recommendations or findings. The meetings are also an 
opportunity for NARA to communicate to and to seek feedback 
from the committee on NARA's strategic plans, the state of the 
Electronic Records Archives, the newest releases and 
developments of the ERA system, and any electronic records 
challenges encountered since the previous meeting. Committee 
members often add value to the meetings by discussing their own 
projects and activities that are relevant to electronic records 
and information technology.
    Over the 4-year history of the committee, it provided 
informal recommendations and advice on the architecture and 
design of the ERA system and approach to processing Freedom of 
Information Act requests for the Presidential electronic 
records, a review of the Hitachi Content Archive Platform to be 
used for processing records, a review of the Global Digital 
Format Registry initiative, discussions of the pros and cons of 
a Federated Electronic Management Model, and a review of the 
requirements for public access within the ERA system.
    The November 2009 meeting agenda includes an overview of 
NARA's Center for Advanced Systems and Technology, a 
presentation on the use of ERA in Presidential libraries, 
strategies for communicating ERA progress, and a discussion of 
NARA's conceptual framework for digital preservation.
    In my letter of invitation to this hearing, you also asked 
for my views on this advisory committee and if there was 
anything that should be done to improve its service to NARA. It 
is my opinion that this advisory committee is useful and 
necessary to the Archivist of the United States at a time when 
preserving and providing access to the growing volume of 
Government electronic records is made even more challenging by 
the rapid changes in technologies that create those records.
    Government does not have all the answers to these 
challenges, but thankfully with ACERA we have a diverse group 
of experts who are willing to give their time to help us stay 
focused on feasible, cost-effective, and, most importantly, 
far-sighted solutions.
    I am personally thankful we have ACERA, and I do not see 
any need for changes to its charter. It is my hope that the new 
Archivist will find this a useful forum, as well.
    Thank you. This concludes my statement, and I will be 
pleased to answer any questions that you might have.
    [The prepared statement of Ms. Morphy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Ms. Morphy, for your 
statement.
    Dr. Greer, you are next up for 5 minutes.

                 STATEMENT OF CHRISTOPHER GREER

    Dr. Greer. Good afternoon. My name is Chris Greer, and I am 
a member of the National Archives and Records Administration's 
Advisory Committee for the Electronic Records Archive. I thank 
the chairman and the ranking member for the opportunity to meet 
with you today.
    I am here today representing myself as an individual member 
of the ACERA. I have been an advisory committee member since 
2007. I am a scientist by training and was a faculty member at 
the University of California Irvine for more than 18 years 
before joining the Federal Government. I have been an employee 
of the National Science Foundation since 2003, where I recently 
served as senior advisor for digital data in the Office of 
Cyber Infrastructure. I am currently on assignment from NSF to 
the Office of Science and Technology Policy, where I serve as 
Assistant Director for Information Technology, Research, and 
Development. I also co-chair the Inter-Agency Working Group on 
Digital Data of the National Science and Technology Council's 
Committee on Science.
    Your committee has asked witnesses to describe their 
advisory group's purposes, uses, and effectiveness, so let me 
describe each of these in turn.
    First purposes: the ACERA is charged with serving as a 
deliberative body to provide advice to the Archivist on 
technical, mission, and service issues relevant to the 
development, implementation, and use of the Electronic Records 
Archive. The operative word in this charge is deliberative. The 
committee's central function is to analyze ERA issues, weigh 
options, and evaluate solutions. The committee's deliberations 
are typically intense and engaging.
    Next uses: the committee is used to air ideas and opinions 
on strategic, technical, and implementation issues. My 
experience is that NARA uses the committee to probe the full 
spectrum of ERA issues. Recent topics have ranged from design 
concepts for the reference architecture through standards 
adoption and supported formats to details of the project time 
line and work status.
    The committee typically uses an action items mechanism 
rather than formal recommendations, reflecting a spirit of 
partnership and an emphasis on real progress. Each meeting 
generates 5 to 10 action items, and the resolution of these 
items is tracked in the minutes.
    Finally effectiveness: in my opinion, five factors have 
allowed ACERA to be effective. First, NARA places a high 
priority on the committee. The Archivist or acting Archivist 
and ERA project leadership attend nearly the entire 2-day 
meeting and actively participate in debate and discussion.
    Second, the committee is consulted at each major project 
phase. The committee meets twice each year, a frequency that is 
about right for this multi-year project.
    Third, ACERA is given the opportunity for full 
deliberation. Each meeting is conducted over 2 days, providing 
the time needed to tackle complex issues in a thoughtful 
manner.
    Fourth, the committee is given the information it needs to 
provide informed advice. Briefing materials are complete and 
candid, and we get an honest look at all sides.
    Fifth, ACERA is used to address questions of substance. 
Briefings focus on challenges, options, and implications rather 
than on defending a preferred choice. NARA leadership and 
staffers, alike, engage in honest debate and demonstrate a 
willingness to change course in response to a compelling case.
    Because of these factors, I have found ACERA membership to 
be valuable and rewarding.
    I hope these comments are helpful, and I am glad to answer 
any questions you may have.
    Thank you.
    [The prepared statement of Dr. Greer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Dr. Greer.
    Now we will hear from Mr. Flaak.
    Mr. Flaak, 5 minutes.

                   STATEMENT OF ROBERT FLAAK

    Mr. Flaak. Chairman Clay, Mr. Ranking Member McHenry, my 
name is Robert Flaak. I direct the Committee Management 
Secretariat at GSA. Thank you for the opportunity to be here 
today to discuss the important role played by Federal advisory 
committees in the work and missions assigned to the executive 
branch and, in particular, for NARA's advisory committees and 
the two in particular that have been mentioned already.
    During previous testimony before this subcommittee, Mr. 
Chairman, I have had the opportunity on occasion to discuss how 
GSA and executive branch agencies and departments manage their 
responsibilities under the Federal Advisory Committee Act. I 
have also included that material in my prepared testimony, 
which I have submitted to you, so therefore I am not going to 
repeat those in my oral statements, but I want to cover the 
questions that you had asked me in your letter.
    At NARA, just as any other executive department and agency, 
the agency committee management officer has responsibility for 
the implementation of FACA on behalf of the agency's head. 
Within NARA, individual designated Federal officers work with 
the CMO to implement the act's requirements at the committee 
level, and together the two of them are responsible for 
ensuring that NARA's compliance with FACA, GSA's regulations 
and guidelines, NARA's internal operating procedures, and any 
other applicable statutes and regulations are adhered to.
    As both you and the ranking member both mentioned, FACA is 
quite detailed in specific procedures, and it does mention the 
requirement for balance in advisory committees. You both quoted 
section five of FACA in that membership of advisory committees 
is to be fairly balanced in the points of view represented and 
the functions to be performed by committees.
    Now, FACA doesn't say much more about it than that. That is 
about as much as the statement exists. We have incorporated 
additional language in our regulations in 41 C.F.R. 102-3 on 
balance, and we specifically state that in the selection of 
members for the advisory committee, the agency will consider a 
cross-section of those directly affected, interested, and 
qualified, as appropriate, to the nature and functions of the 
committee. We also apply additional guidance in our regulatory 
package that lets agencies evaluate other ways of selecting and 
balancing their committees.
    Mr. Chairman, in your letter to me you asked specifically 
about these two NARA advisory committees, the Advisory 
Committee on Electronic Record Archives and the one on 
Presidential Libraries. Both of these were established as 
agency authority committees, and as such they are discretionary 
and they report to NARA. The Advisory Committee on Electronic 
Record Archives was established in 2005. Its most recent 
charter was renewed in August of this year in 2009. It has 16 
members, all of whom are special Government employees.
    According to data submitted by NARA in our shared 
management system, which is our online FACA data base, from 
fiscal years 2006 through 2009 the committee met twice each 
year and expended an average of about $38,000 each year. Cost 
figures for 2009 are still tentative pending reconciliation of 
that data through our annual comprehensive review.
    According to its charter, the committee serves as a 
deliberative body on technical, mission, and service issues 
related to electronic record archives, as Dr. Greer mentioned.
    I might point out that as a deliberative body I have 
noticed this committee does not typically use a formal 
recommendations mechanism. That is to say we don't see formal 
recommendations listed in our data base. We do see, though, in 
the minutes that are online for this committee a number of 
action items that are identified in the minutes, as Dr. Greer 
mentioned.
    The Advisory Committee on Presidential Libraries was 
established by NARA in 1988. Its most recent charter was 
renewed in July 2008, with 12 members who are representative 
members. That charter is still active. It is a 2-year charter. 
It will expire next summer.
    According to data submitted to us by NARA, the committee 
has not met during fiscal year 2007, 2008, or 2009, and, as 
mentioned earlier, they did meet in 2006.
    NARA does report one recommendation issued by the committee 
during its lifetime in our system, and, again, that is the 
information that has been received by my office.
    According to its charter, the committee is to advise the 
Archivist of the United States on matters relating to the 
archival, museum, and public programs of the Presidential 
libraries operated by the NARA and advises the Archivist on 
policies, procedures, programs, objectives, and other matters 
relating to the effectiveness of the Presidential library 
system.
    Mr. Chairman, you had also asked me to address the degree 
to which NARA's advisory committees process gives NARA relevant 
information that it needs to conduct its business. I have to 
say that is a little difficult for us to determine at our 
distance. You did hear some of that from Ms. Fawcett earlier 
regarding her committee. GSA does rely on Executive departments 
and agencies like NARA to provide real-time data throughout the 
year and to wrap it up at the end of the year and verify it on 
their committees, and so we can verify that information by the 
close of the fiscal year.
    In looking at advisory committees, though, from our 
perspective, we can estimate a committee's value to an agency 
in a couple of ways. One, if the committee is meeting 
frequently. Is the committee used a lot by the agency? Does it 
get a lot of opportunities to participate with the agency and 
the public? The number of recommendations issued by the 
committee and whether or not, most importantly, those 
recommendations are adopted by the Federal agency. Finally, if 
we get feedback from the agency through our desk officer 
program in my office. Last, since these committees in both 
cases have been renewed on a regular basis, from our 
perspective it would appear that NARA finds them both to be 
beneficial and will continue to renew these.
    I am not sure whether the Presidential Library Committee 
will change as a result of the change in the Archivist. That is 
a matter up to the agency to decide. I defer certainly to NARA 
on that.
    Mr. Chairman, that ends my oral statements. I would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Flaak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Flaak. I appreciate your 
insight and testimony.
    Let me start with Ms. Fawcett. In light of the broad and 
serious challenges facing Presidential libraries and the fact 
that they aim to serve many different kinds of groups and 
individuals, can you continue to justify limiting the 
membership of the committees solely to representatives of the 
private foundations?
    Ms. Fawcett. Well, I don't think in the end that is my 
decision. It would be the decision of the next Archivist. As I 
said in my testimony, we are interested in what other 
stakeholder groups have, and NARA reaches out on a consistent 
basis to talk with those divergent stakeholders. We held 
meetings of public interest groups with regard to the 
alternative models report, and our thoughts and 
recommendations, changes we might propose to the Presidential 
Records Act. As a result of that meeting, we chose not to 
propose certain changes to the act.
    We meet regularly with educators, and we meet with 
historians and other special interest groups. Each of the 
individual libraries reaches out to many of the groups in their 
communities. They work with local school boards and local 
school districts in developing curriculum packages for visits 
by school children to the various libraries. So there is much 
that is done by NARA to continue to reach out to all of these 
groups.
    On the other hand, you know, having a way and a forum in 
which to meet with the foundations is a strength and provides a 
useful forum for the Archivist when he chooses to do that. 
Archivist Carlin, for example, used the meetings that occurred 
during his tenure to focus on the issue of funding programs in 
Presidential libraries and to get the foundations to understand 
the necessity of their stepping up to the plate to provide for 
the exhibits and education programs and public programs that 
make a library a viable and vibrant entity. I think that very 
use was very helpful.
    On the other hand, the foundations gave feedback to the 
Archivist, and I think members of the committee might be 
surprised to know how interested the foundations are in 
ensuring that NARA has the resources for core processes. 
Processing declassification was a very important issue to these 
foundations. They wanted to see the Presidential records open. 
They wanted to see records declassified. I think, as a result 
of their urging, the urging of many other stakeholder groups 
who talked to NARA, Congress did see fit to provide us with 
additional resources for processing Presidential records. We 
added 15 new archivists in the Presidential Records Act 
libraries, and we have the largest staff of archivists ever at 
the George W. Bush Library.
    So I found the committee has been useful.
    Mr. Clay. So you do think we need to have historians, 
archivists, preservationists, researchers, curators, educators, 
and others?
    Ms. Fawcett. I think it is very important to hear from all 
of those groups, and NARA reaches out to them.
    Mr. Clay. Do you think they should be on the boards?
    Ms. Fawcett. I think that is fair. I think that is a 
perfectly reasonable thought to have them on board on this 
committee, and that is why Archivist Weinstein and Archivist 
Carlin and I both discussed the membership. But for various 
reasons it didn't occur. I became Acting Archivist for 
Presidential Libraries just before John Carlin left the agency 
and just before Weinstein was sworn in.
    Archivist Weinstein held two meetings of the committee, but 
I think that his particular style, he preferred a more 
individual one-on-one relationship with the foundations, and so 
he sought to interact with the foundations more on a one-on-one 
basis. I think that may have been one of the reasons why he had 
so few meetings of the committee.
    Mr. Clay. OK. Do you think they should meet regularly?
    Ms. Fawcett. I think it is useful for them to meet 
regularly. Yes.
    Mr. Clay. OK. When you reach out to other stakeholders, as 
you mentioned, are the contacts subject to FACA?
    Ms. Fawcett. Well, it depends. You can have a single-
purpose meeting with other stakeholders and not be in violation 
of the FACA. We work very closely with our general counsel's 
office when we set up any of these kind of meetings to ensure 
that we are in compliance with the FACA.
    Mr. Clay. You take recommendations from the different 
stakeholders, right?
    Ms. Fawcett. We listen. Yes.
    Mr. Clay. OK.
    Ms. Fawcett. Yes.
    Mr. Clay. OK. And that all comes into the decisionmaking 
process under FACA?
    Ms. Fawcett. It becomes part of our decisionmaking process 
as we listen to people one-on-one or in small groups. We are 
not meeting with them on a regular basis on any one subject.
    Mr. Clay. Ms. Fawcett, has any of the following items 
occurred since the last meeting of the advisory committee? I've 
got a list here, so I want to ask you to respond.
    Ms. Fawcett. OK.
    Mr. Clay. Has NARA accepted any Presidential libraries into 
the system since you last met?
    Ms. Fawcett. When was Clinton?
    Mr. Clay. Would it be the----
    Ms. Fawcett. Clinton was already in the system since we 
last met. No. Yes, we have--the Nixon.
    Mr. Clay. Nixon.
    Ms. Fawcett. The Nixon Presidential Library was accepted 
into the system in July 2007. Excuse my memory blank here.
    Mr. Clay. OK. So that is pretty major. That is pretty 
major, correct, to get a new library into the system?
    Ms. Fawcett. Yes, it is.
    Mr. Clay. OK. Has any Presidential library undergone or 
announced plans for major renovations to their physical plant 
such as expansions or other kind of capital improvement 
projects?
    Ms. Fawcett. Yes, we are working on capital improvement 
projects in several Presidential libraries. Currently, 
Roosevelt and Kennedy. On dock are Johnson----
    Mr. Clay. And that is pretty significant, too, I mean, to 
go through a major renovation is pretty significant?
    Ms. Fawcett. Yes, but we don't depend on the advisory 
committee for advice on those renovations. NARA has 
architectural and design standards that govern the renovations 
of these buildings. We work closely with our preservation 
staff, our facilities staff, with the library where the 
renovations are being considered.
    Mr. Clay. OK. All right. Let me go to Dr. Greer or Mr. 
Flaak.
    There seems to be many areas where NARA's reporting is 
either incomplete or incorrect in the FACA data base. Is the 
agency responsible for providing accurate, up-to-date 
information for the public?
    Mr. Flaak. Yes, Mr. Chairman, that is correct. The agency 
enters the data into the system, which is a public facing 
system. The data is entered in in different ways by different 
agencies. Some agencies, the DFOs, the designated Federal 
officers for the individual committees, enter the data. In 
other cases, the community management officer, themselves, 
reserves that right to themselves. In any event, the agencies 
do it. They verify the data toward the end of the year during 
our annual comprehensive review process, which is ongoing right 
now through the end of next month. And then we work with them 
to verify that data at the end of that process.
    Mr. Clay. Why should we be concerned about compliance with 
information reporting requirements of FACA?
    Mr. Flaak. Pardon me, Mr. Chairman?
    Mr. Clay. Why should we be concerned about compliance with 
the information reporting requirements of FACA in this 
instance?
    Mr. Flaak. If the agency is reporting incorrect 
information, then either the Congress, ourselves, or other 
interested parties don't have an accurate understanding of what 
that committee might be doing, how much money they are 
spending, or how they are operating their committees.
    For the current fiscal year that just ended, 2009, the data 
is still I would call it in raw form because it doesn't get 
verified until the end of the year. But if you look at previous 
years, 2008 and prior, that information has been verified by 
the agency and is complete, and therefore should be accurate.
    Mr. Clay. OK. Thank you for that response.
    In talking about accuracy, I received a response from 
Archives yesterday pointing out six discrepancies in 
information that they supplied to this committee. One of them 
was on how to classify members of the advisory committee, as 
special Government employees or as representatives. Then they 
say we've changed the designation for these members in our 2008 
report, and now they are all correctly listed as 
representatives instead of special Government employees. They 
talk about appointment type. Have you seen this letter?
    Mr. Flaak. I saw it this morning, Mr. Chairman.
    Mr. Clay. And it is six different areas that they had to 
correct. What do you think of this? This is pretty going by the 
seat of their pants pretty quickly here, aren't they?
    Mr. Flaak. Well, it is always good to get the data correct, 
but it is nice to have it right in the first place.
    Mr. Clay. Eventually you get it correct.
    Mr. Flaak. We'd like to think so, but there is a lot of 
agencies and a lot of advisory committees out there, and 
checking each of these over individually takes time.
    Mr. Clay. Thank you.
    Mr. Flaak. I might point out, Mr. Chairman, on the 
representative issue that you mentioned a moment ago, back in 
2004 the Government Accounting Office, now the Government 
Accountability Office, did a review of the membership balance 
issues. I believe you are aware of that----
    Mr. Clay. Yes.
    Mr. Flaak [continuing]. And directed that both GSA and 
Office of Government Ethics step up their process on ensuring 
that members were correctly designated on Federal advisory 
committees, whether they be representative members of special 
Government employees. We have worked on that process with 
agencies back from about that time in the mid-2004-2005 
timeframe.
    For this Committee on Presidential Libraries it would 
appear to be appropriate that the members be representative 
members. Why they characterized them originally as special 
government employees, I don't know. But the change as it took 
place over the last couple of years was correct, and it was the 
correct direction for it to go.
    Mr. Clay. Thank you for your response.
    Ms. Morphy, how important is the Advisory Committee on 
Electronic Records Archives to you, to the ERA, and to NARA?
    Ms. Morphy. As I stated in my testimony, very important. 
Whenever you are doing a large information technology project, 
you are very, very focused on doing that project and trying to 
meet deadlines, and it is always good to have an external 
opinion to make sure that our focus continues to be correct, 
and ACERA certainly has provided great guidance to us, and, 
based on the action items that we have received, we have made 
some changes in terms of the direction that we have gone with 
the system.
    Mr. Clay. Do you meet so often and for so long because of 
the complexity of the issues or because of the diversity of the 
membership views or both?
    Ms. Morphy. I think first the complexity of the issue. 
Actually, both. The membership, because they are from both the 
private and the public sector, from universities, people who 
have an interest in electronic records as well as information 
technology, when you have people with those skills all in a 
room together, the discussion really, really does get to a 
level to really help us make determinations on the direction 
the system should go.
    Mr. Clay. Can you give me a specific example or two of how 
the committee's advice or assistance has improved the 
Electronic Records Archive?
    Ms. Morphy. I think from my own experience in the area of 
public access, this is an area that I am very interested in. At 
our last meeting in April we provided a presentation on the 
direction that we were going toward public access, something 
that we are building right now, and the advisory committee 
offered several suggestions that we accepted and that have been 
added to our requirements, and also offered some possibilities 
in how we might share the development of the prototype with 
them as we go forward.
    Mr. Clay. Thank you for that. Do you think the committee 
could have provided NARA with such assistance if it were 
comprised only of individuals directly involved with NARA and 
only representing one general area of the ERA?
    Ms. Morphy. No, not at all. Having the blend of people who 
have different experiences and come from different 
organizations has really--and some of the things that they have 
experienced in terms of doing projects just have enhanced our 
ability to build ERA.
    Mr. Clay. Very good to know. Thank you for that.
    Dr. Greer, in your experience as a member of the Advisory 
Committee on Electronic Records Archives, does the committee as 
a whole or individual members of the committee provide 
assistance, guidance, or advice in any other forum or by any 
other means than the committee's meetings?
    Dr. Greer. Mr. Chairman, the question is: are there other 
mechanisms that are used to provide advice to NARA on ERA?
    Mr. Clay. Yes, I guess it would be e-mail communications, 
letters.
    Dr. Greer. There are, of course, materials that go out in 
advance of each meeting to provide background for the members 
and scheduling issues, things like that. Otherwise, there is 
not a lot of formal back-and-forth.
    Now, we are all of us involved in areas of digital 
preservation and access, and so we certainly run across one 
another individually and talk about general technology issues 
in the course of events.
    Mr. Clay. Here's the point: do you think the committee 
could be effective without meeting as a group or if it did not 
meet for several years at a time?
    Dr. Greer. In the case of the Electronic Records Archive, 
which is a very broad scope project which is moving forward in 
a landscape of changing technologies, I think the only way to 
keep up in this particular instance is through regular meetings 
where people get together and have an active debate over things 
that don't have a single solution.
    Mr. Clay. OK. You said in your statement that the committee 
membership is diverse, providing a breadth of perspectives; 
however, one could argue that because the committee's work 
covers a very specific area, NARA's Electronic Records Archive, 
that the membership should be limited only to those with direct 
experience in such a unique field, and only from the experience 
with the National Archives. Do you think the committee could be 
as effective if its members were limited in this way?
    Dr. Greer. The Electronic Records Archive, again, is a 
complex project that has the issues of ingest from the various 
Federal agencies, permanent preservation and access, in its 
archives function, and access to a wide variety of communities 
in order to make that information have value to the public. 
Because of that breadth of issues, I don't think any one person 
or group, interest group, could cover all of that.
    So I think in a case of ERA, which is quite a unique 
project in NARA's history, the breadth of the project demands a 
group that has considerable breadth.
    Mr. Clay. Thank you for that testimony.
    Ms. Fawcett, the membership of the Advisory Committee on 
Presidential Libraries consists solely of individuals who 
represent the private foundations that build and support the 
library; is that correct?
    Ms. Fawcett. Private foundations or family members.
    Mr. Clay. Or family members. OK. Are these foundations 
completely separate from the Presidential libraries and the 
National Archives?
    Ms. Fawcett. They are completely independent institutions, 
501(c)(3)'s.
    Mr. Clay. OK. For instance, do any foundations receive 
anything of value from any Presidential library and/or NARA? Do 
we fund them? Do we give them any resources?
    Ms. Fawcett. Prior to the passage of the amendments of the 
Presidential Libraries Act in 1988, when foundations provided a 
library to the Government the Government then, in return, 
allowed them to use some space within the library, so a very 
few of our libraries actually house foundations within their 
space. After the amendments to the Presidential Libraries Act, 
that space is separate and apart from the National Archives. So 
yes, that would be, I suppose, a benefit to the foundations.
    Mr. Clay. So NARA covers the space, the utilities, computer 
equipment, Government phone lines?
    Ms. Fawcett. Not the computer equipment, not the staff. 
They cover the space and the utilities, but not the computer 
equipment or the staff.
    Mr. Clay. OK. Whose telephones are they? Are they 
Government or----
    Ms. Fawcett. It varies. I think in most cases it is their 
own system, but in some cases they do use our telephones.
    Mr. Clay. How about furniture?
    Ms. Fawcett. They gave the furniture in the first place, so 
they get to use it.
    Mr. Clay. How about office supplies?
    Ms. Fawcett. They buy their own office supplies.
    Mr. Clay. OK. Government e-mail addresses? No?
    Ms. Fawcett. There are a couple that use the NARA-net 
system, which is our internal system. Most have left NARA-net 
because they don't like the security requirements so they have 
their own systems. But I don't do think at--I think the Ford 
Library Foundation uses a NARA mail account.
    Mr. Clay. Does NARA have memorandums of understanding with 
these foundations for the goods and services the Government 
provides?
    Ms. Fawcett. We have joint operating agreements with the 
foundations. When they turn over to the Government a library, 
we have a joint operating agreement that outlines the tenets of 
our relationship.
    Mr. Clay. And then does NARA calculate the value of these 
goods and services, and is NARA compensated in all cases?
    Ms. Fawcett. Well, NARA is compensated through the funding 
of programs, etc. For example, the Johnson Library Foundation 
occupies a couple of offices and a little reception space in 
the library, but that foundation provides over $1.5 million a 
year in support for processing staff, exhibits, public 
programs, etc. So yes, NARA does receive something in return 
for the foundations being able to use that space. They raise 
money on behalf of the library.
    Mr. Clay. OK. Other than vendors who are paid for their 
products and services----
    Ms. Fawcett. I am sorry? Other than who?
    Mr. Clay. Than vendors.
    Ms. Fawcett. Vendors.
    Mr. Clay. Vendors, who are paid for their products and 
services and groups that rent the facilities for a fee, are 
there any other organizations that receive anything of value 
from any Presidential library and/or NARA? Any other groups 
that receive anything of value that they don't pay for?
    Ms. Fawcett. Well, for example, we put on education 
programs for classrooms around the country, and so classes of 
students come to the library, experience our theater of 
decisionmaking, and there is no charge for that service.
    Mr. Clay. That wasn't what I was looking for.
    Ms. Fawcett. I don't know what you are----
    Mr. Clay. That is educational. I don't know how you put 
value on that.
    Ms. Fawcett. I can't think of any group that is receiving 
free services from NARA.
    Mr. Clay. OK. The private library foundations are the only 
ones who receive anything of value from the National Archives 
then?
    Ms. Fawcett. And only a very limited number of them have 
offices in our space.
    Mr. Clay. OK. All right.
    Mr. Flaak, these private foundations have financial 
relationships with the National Archives. Does the fact that 
the leadership or other representatives of these foundations 
serve on the advisory committee present any conflict or the 
possibility of a conflict of interest?
    Mr. Flaak. Mr. Chairman, I can't speak to the relationship 
between the foundations and NARA, but with regard to the 
membership on the advisory committees, whoever that 
representative is from each foundation to the committee, under 
the guidelines put out by the Office of Government Ethics, 
representative members are not subject to conflict of interest 
rules. So, while there may be an appearance issue here, from a 
legal standpoint, Office of Government Ethics would not apply 
conflict of interest rules to those individuals.
    Mr. Clay. All right. Thank you for that.
    Ms. Fawcett, has any representative from the George W. Bush 
Library Foundation been invited to join the committee formally 
or informally? If so, who are they and when did they join the 
committee?
    Ms. Fawcett. We invited the Library Committee to attend the 
2006 meeting, but because we haven't had a meeting since then 
no formal invitation has been extended to the George W. Bush 
Library Foundation to have a member of the committee, so the 
answer is no, we have not.
    Mr. Clay. So you are waiting on the new Archivist to invite 
them?
    Ms. Fawcett. Well, at such time as the new Archivist or at 
such time as we would have a meeting, then we would look to 
have a representative name from that foundation.
    Mr. Clay. OK. Do you know who that person would be, who the 
contact person would be with the Bush Library?
    Ms. Fawcett. I know who I would contact at the Bush Library 
Foundation to make a suggestion. Whether that person would be 
the member or not, I don't know.
    Mr. Clay. Would you like to give a name?
    Ms. Fawcett. Mark Langdale. He is the CEO of the 
foundation.
    Mr. Clay. All right. Thank you for that.
    Allen Weinstein was the most recent Archivist of the United 
States, but the advisory committee was established long before 
his tenure. How many meetings were held after Professional 
Weinstein began his tenure as Archivist?
    Ms. Fawcett. Two.
    Mr. Clay. Two. Do you know if Professor Weinstein supported 
and made use of the advisory committee?
    Ms. Fawcett. Well, at the two meetings held with Professor 
Weinstein, there was much discussion of marketing Presidential 
libraries and funding for education programs and IT 
initiatives. There was concern expressed by the foundation 
members that the libraries didn't have sort of the IT 
infrastructure that they needed to do far-reaching projects, 
digitization, etc. So there was that discussion, and then there 
was the discussion of creating a marketing plan for 
Presidential libraries, which my office later worked on and 
completed a marketing study.
    Mr. Clay. And do you think the next Archivist of the United 
States should support and make use of the committee?
    Ms. Fawcett. I haven't talked to Mr. Ferriero, so I don't 
know. I would certainly recommend that he think about how best 
to use the committee for whatever, however he is going to 
approach the issues in Presidential libraries. I think there 
are ways that the committee can be helpful, or there are ways 
that, depending on what his goals are, that other types of 
committees could be helpful.
    Mr. Clay. How often do you think the committee should meet?
    Ms. Fawcett. I think once a year, as a practical matter, is 
useful.
    Mr. Clay. Should membership be open to individuals outside 
of the private library foundations?
    Ms. Fawcett. I think that is something for the Archivist to 
consider. It is his committee. But I wouldn't object.
    Mr. Clay. OK. Thank you.
    Mr. Flaak, in your testimony you said that the FACA 
regulations state that in selecting members of a committee the 
agency will consider a cross-section of those directly 
affected, interested, and qualified. Does the Advisory 
Committee on Presidential Libraries' membership, limited only 
to those appointed by the private foundations, meet that 
criteria?
    Mr. Flaak. For a committee like this one--and this is a 
discretionary committee, Mr. Chairman--it is up to the agency 
that is supporting this committee to make a decision on who 
should be on that committee. However, it would appear that this 
committee might be better served by broadening its membership.
    Mr. Clay. Thank you for that opinion.
    Mr. Flaak. There are certainly complex relationships 
between this committee and the agency.
    Mr. Clay. And that could possibly require some legislative 
direction for an agency in this case?
    Mr. Flaak. The agency could either make that decision on 
their own, or they could be directed to do so, certainly.
    Mr. Clay. I see. Under FACA, should the members of the 
Advisory Committee on Presidential Libraries be classified as 
representatives or special Government employees?
    Mr. Flaak. The current membership who are representing the 
foundations should be classified as representatives, which they 
currently are.
    Mr. Clay. OK.
    Mr. Flaak. If there were additional members who are experts 
in various fields, I would suggest those probably would be 
classified as special Government employees.
    Mr. Clay. And that was changed yesterday.
    Ms. Fawcett. Excuse me. Our charter----
    Mr. Clay. I am asking him. All right.
    If a member of the committee is classified as a 
representative, does FACA require a conflict of interest check 
or any other kind of ethics-related screening?
    Mr. Flaak. Mr. Chairman, FACA is pretty silent with regard 
to ethics requirements, but I know Office of Government Ethics 
would not require an ethics check on a representative member.
    Mr. Clay. OK. Ms. Fawcett, for many years members of the 
Presidential Libraries Committee were designated as SGEs. In 
1999 they were all changed to representatives, even though NARA 
continued to report them as SGEs for almost 10 years. When 
these members were designated as special Government employees, 
did they complete the proper requirements for reporting 
conflicts of interest?
    Ms. Fawcett. In 1999 our counsel, Chris Runkle, determined 
that, after I think it was an OGE audit, that these should be 
classified as representatives, and it is so reflected in our 
charter. The fact that our committee management staff failed to 
correctly note on the FACA data base that they were 
representational, I think that is problematic for us, but the 
fact of the matter is the charter, itself, declares that for 
the purposes of representation they are representational 
members. It was a mistake in the FACA data base. The charter is 
clear. The OGE audits are clear. The decisions have been clear 
since 1999. Prior to that I couldn't tell you.
    Mr. Clay. Wow, that is 10 years. That is almost 10 years of 
an oversight, as you call it.
    Ms. Fawcett. I am sorry.
    Mr. Clay. No real explanation for that?
    Ms. Fawcett. I have no explanation of why the committee 
management staff, which is not a part of my office, reported it 
this way.
    Mr. Clay. OK. Mr. Flaak, 11 of the 12 members of the 
Presidential Libraries Committee have no fixed terms of 
appointment, and 5 of the 12 have served for around 20 years. 
Is either common for Federal advisory committees?
    Mr. Flaak. In general, Mr. Chairman, no, that is not common 
behavior. Most advisory committees rotate membership terms of 
maybe 2 or 3 years and for the most part, keep members no more 
than perhaps 6. But there are exceptions, and this may be one 
of them.
    Mr. Clay. OK. For Dr. Greer or Mr. Flaak, the President has 
recently encouraged agencies not to reappoint lobbyists to 
Federal advisory committees citing the need to introduce fresh 
points of view. Do you think that service on an advisory 
committee for 10 or 20 or more years should also be discouraged 
in order to add new perspectives?
    Mr. Flaak. I think there are a couple of factors that go 
into advisory committee membership. One is continuity of 
understanding of the issues, so sometimes it is good to have 
somebody who serves on the committee for a fair amount of time. 
But at the same time, it is good to give new opportunities to 
other people to participate and get a broader perspective on 
what the issues are. So I think there is room for both.
    Dr. Greer. I would second that. There is an issue of 
continuity, particularly on a multi-year project like the 
Electronic Records Archive. Understanding some of the 
architectural decisions that were made early on and the 
intention there is very helpful. So I would say a mix is 
appropriate.
    Mr. Clay. Thank you for that.
    Ms. Fawcett, as NARA claims in its official justification, 
the advisory committees' assistance has been particularly 
useful in discussions of future financing of the libraries and 
the relationship between the libraries and their support 
organizations. If this is the case and these major events have 
occurred and continue to occur, why have you not called a 
meeting of the committee in almost 4 years?
    Ms. Fawcett. That is not my responsibility to call a 
meeting of the committee.
    Mr. Clay. OK. Whose responsibility is it?
    Ms. Fawcett. It is the Archivist of the United States.
    Mr. Clay. Have you advised the Archivist to call a meeting 
maybe?
    Ms. Fawcett. We have discussed having a meeting and he 
chose not to have one.
    Mr. Clay. OK. He chose not to have one. OK. And in the last 
4 years have you tried to schedule a meeting or recommended 
that the committee meet?
    Ms. Fawcett. In the last 4 years have we tried to schedule 
a meeting? No, we have not scheduled a meeting in the last 4 
years. As I said in my statement or in answer to an earlier 
question, I think Archivist Weinstein was more comfortable 
meeting one-on-one with the foundations and he chose that path 
and met regularly across the Nation with individual 
Presidential foundations to discuss issues, budget, governance 
issues, etc.
    Mr. Clay. Has any member of the committee requested that 
you call a meeting within the last 4 years?
    Ms. Fawcett. Not that I recall.
    Mr. Clay. In your testimony you said that members of the 
advisory committee communicate with and make recommendations to 
NARA without formally meeting. You also say that these members 
or other representatives of the library foundation have begun 
to meet and to invite NARA officials to participate in at least 
a part of those meetings. Do you have any concerns that this 
seems to indicate that the representatives of the private 
foundations are operating outside of the reporting and 
transparency requirements of FACA?
    Ms. Fawcett. Since our only role at that meeting was to 
deliver a fairly perfunctory report on NARA activities, I think 
that the foundations have every right to meet among themselves 
to discuss issues of concern to them. There were, I think, 32 
or 33 members who came to that meeting, of which--and I had an 
attendance list, so I know who came--there were 5 or maybe 6 
who had ever been to an advisory committee meeting, so most of 
the people who attended that meeting were not advisory 
committee members.
    Mr. Clay. OK. But, I mean, look at the process here. They 
are----
    Ms. Fawcett. We didn't govern the process, Mr. Chairman.
    Mr. Clay. They are calling the meetings and then NARA is 
participating. Could it be----
    Ms. Fawcett. NARA's participation was very, very brief.
    Mr. Clay. OK. It is really blurring the lines here.
    Ms. Fawcett. And we didn't participate in any discussions.
    Mr. Clay. OK.
    Ms. Fawcett. We participated in no discussions.
    Mr. Clay. OK. We are blurring the lines here of what is 
proper and transparent, I think. It really calls into question 
what we are trying to achieve here.
    Ms. Fawcett. Well, we didn't intend to blur any lines of 
transparency.
    Mr. Clay. Well, I am telling you what it is starting to 
look like.
    Late yesterday we received a letter from NARA explaining 
errors and discrepancies in the reporting of information about 
your committee. How did that series of errors over the course 
of several years occur, and how were they identified?
    Ms. Fawcett. In preparation for this hearing, I actually 
became aware that there was this FACA data base. Over the years 
my staff would be asked periodically--specifically the 
designated Federal official on my staff, who was not me--would 
be asked to supply certain information, and he would be asked 
specific questions, and so we supplied that information.
    But it turned out that we weren't asked all the information 
that is in the FACA data base, so therefore certain errors 
occurred. We had not reviewed the data base until recently, and 
mae culpa for not knowing of its existence and reviewing it on 
a regular basis to make sure the information was correct. But 
we will take corrective action, and I am sure that in the 
future that all the designations are appropriate and correct 
and timely.
    Mr. Clay. Thank you for that response.
    Mr. Flaak, there seem to be many areas where NARA's 
reporting is either incomplete or incorrect in the FACA data 
base. Is the agency responsible for providing accurate, up-to-
date information for the public?
    Mr. Flaak. Yes, it is, Mr. Chairman.
    Mr. Clay. Mr. Flaak, why should we be concerned about 
compliance with the information reporting requirements of FACA?
    Mr. Flaak. Well, when inaccurate information is reported, 
it is reviewed by many outside sources. It is the source of 
newspaper articles, it is the source of mis-information. It 
results in hearings like this one.
    Mr. Clay. Thank you for that response. I just don't know. 
Maybe it is me, but I just think, you know, this system of 
Presidential libraries is very troubling. It is not well 
connected and transparent. I think that NARA needs to do a 
better job of being open and having a process that is open and 
that is more public oriented and more open to the public and is 
just--I am very uneasy about what we have discovered over the 
last couple of months of inquiry.
    Ms. Fawcett, I look forward to the new Archivist coming in 
an explaining to us just how we will proceed as a Government 
with our relationship with Presidential libraries. It is kind 
of willy-nilly now, this whole process, and it is not clear. 
And we ought to be able to clearly define it in this new era of 
open Government and transparency, and I would like to see more 
openness from NARA on how we administer Presidential libraries 
or the relationship with those committees and the libraries.
    Ms. Fawcett. We made numerous suggestions in the 
alternative model report on how to have a better governance 
relationship with the Presidential foundations. I would be 
happy to refer you to that report or leave you with a copy of 
it.
    Mr. Clay. OK.
    Ms. Fawcett. We identified five particular models for the 
future for Presidential libraries that would cost less. Not all 
of them cost less, as it turned out, but model one, which was 
some variation of the present system, suggested that the 
Presidential libraries scattered across the country bring value 
to the country. The Presidency is the one office elected by 
everyone, and to have libraries established across the country 
where citizens have access to them mates the Presidency to 
these communities where many citizens, students benefit.
    But the libraries, as I said, the relationship between 
library foundations and NARA is complex, and it could be more 
open and it could be better and it could be better established 
through a governance relationship that is stipulated either 
through NARA regulations or in statute. I agree completely with 
you that there are more things we can do. We have worked hard 
to be as open and transparent as we can. We meet regularly with 
people. We have not attempted to foster any secret meetings. We 
do meet individually with foundations.
    I travel to the libraries and visit the libraries and while 
I am there visit the Presidential foundations, encourage them 
to work with the library directors on programs and exhibits and 
to gain, to have a more appropriate, a more nuanced historical 
perspective in the exhibits, and I am really pleased to say 
that we are seeing that happen as new exhibits are being 
planned.
    I appreciate the chairman's concern and I know I will take 
that concern to the Archivist as we discuss the future of 
Presidential libraries, so thank you for your concern.
    Mr. Clay. Thank you for that response, Ms. Fawcett. You 
know, public Presidential libraries do bring a value to the 
public. Personally, I have visited several.
    Ms. Fawcett. I am glad for that.
    Mr. Clay. My children enjoy every one that they visit. We 
house one in Missouri, the Truman Library, in Independence. I 
think all of them bring value to the public.
    This hearing has indicated to me that we need to have some 
clearly defined rules and statutes for which these libraries 
are to operate under, and the sooner the better.
    Ms. Fawcett. Right. I refer you to the paper we wrote on 
alternative models that has several suggestions.
    Mr. Clay. Please share that with committee staff.
    Ms. Fawcett. I think the committee staff may have a copy, 
but I am happy to leave another one with them.
    Mr. Clay. All right. That will be fine.
    That will conclude this hearing. I want to thank all of you 
for your participation in this today. Thank you and God bless 
you.
    Ms. Fawcett. Thank you, Mr. Chairman.
    Mr. Clay. The hearing is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
